<html>
<title> - [H.A.S.C. No. 111-115] FINDINGS OF THE DEPARTMENT OF DEFENSE INDEPENDENT REVIEW RELATING TO FORT HOOD</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-115] 

 FINDINGS OF THE DEPARTMENT OF DEFENSE INDEPENDENT REVIEW RELATING TO 
                               FORT HOOD 

                               __________

                                HEARING

                               BEFORE THE

                             FULL COMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 20, 2010


                                     
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-664 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                                     

















                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Dave Kildee, Professional Staff Member
                 John Chapla, Professional Staff Member
                      James Weiss, Staff Assistant


















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, January 20, 2010, Findings of the Department of 
  Defense Independent Review Relating to Fort Hood...............     1

Appendix:

Wednesday, January 20, 2010......................................    37
                              ----------                              

                      WEDNESDAY, JANUARY 20, 2010
 FINDINGS OF THE DEPARTMENT OF DEFENSE INDEPENDENT REVIEW RELATING TO 
                               FORT HOOD
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Clark, Adm. Vern, USN (Ret.), Former Chief of Naval Operations...     6
West, Hon. Togo, Former Secretary of the Department of Veterans 
  Affairs, Former Secretary of the Army..........................     4

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    44
    Skelton, Hon. Ike............................................    41
    West, Hon. Togo, joint with Adm. Vern Clark..................    46

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 FINDINGS OF THE DEPARTMENT OF DEFENSE INDEPENDENT REVIEW RELATING TO 
                               FORT HOOD

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, January 20, 2010.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The committee met, pursuant to call, at 10:05 a.m., in room 
HVC 210, Capitol Visitor Center, Hon. Ike Skelton (chairman of 
the committee) presiding.
    The Chairman. Good morning. On November 5, 2009, a gunman 
opened fire at the Soldier Readiness Center at Fort Hood, 
Texas. In line at the center were soldiers preparing for 
deployment to combat zones overseas by completing last-minute 
administrative tasks.
    Thirteen people were killed and 43 were wounded on the U.S. 
Army base on United States soil.
    The alleged gunman, Army Major Nidal Hasan is an active 
duty Army psychiatrist. As of today, he has been charged under 
Article 118 of the Uniform Code of Military Justice with 13 
counts of premeditated murder and Article 80 of attempted 
premeditated murder.
    I am troubled by the fact that it would appear that some of 
the circumstances that led to the shooting were the result of 
military officers not following existing policies and 
procedures. Specifically there are numerous stories in the 
press, NPR, AP, MSNBC, CNN, Fox News and others, that the 
alleged shooter's raters and senior raters failed to document 
negative information in his official record. We have questions.
    Why did it happen? Could it have been prevented? Was the 
response adequate? More importantly, we all share the same 
intent to ensure that everything possible is done, that this 
does not happen again. There are several task forces and panels 
examining these very questions.
    Today we hear from the first of these groups to issue a 
report. The independent review related to Fort Hood--Secretary 
Gates chartered the review soon after the shooting and gave 
them 45 days to quickly examine the Department of Defense's 
programs, policies and procedures related to force protection, 
emergency response, and support of health care providers, and 
oversight on the alleged perpetrator prior to the shooting.
    To co-chair this independent review, Secretary Gates picked 
two seasoned senior leaders. One is the Secretary of Veteran 
Affairs and Secretary of the Army, Togo West; and the former 
Chief of Naval Operations, Admiral Vern Clark.
    Gentlemen, we thank you for your service and look forward 
to hearing your findings.
    It is also worth noting that Secretary West is no stranger 
to this type of initial review. He co-chaired the independent 
review group created by Secretary Gates following the 
disclosure of deficiencies regarding Walter Reed in 2007. We 
hope our witnesses will address the adequacy of our force 
protection, emergency response policies to identify service 
members with radical or violent tendencies before they may hurt 
others. I am particularly concerned, though, about the system 
of officer evaluation in the Army and other services. The 
performance report--the Army calls it the OER--must accurately 
reflect the strengths and weaknesses of officers. Problems must 
not be passed from one assignment to another.
    This hearing continues the committee's oversight of these 
issues that began in several briefings at the end of last year. 
We will continue this oversight in the coming weeks and months. 
I said from the outset that we must take great care that our 
inquiries into the shooting do not compromise or imperil the 
prosecution of the alleged gunman in any way. We will continue 
our inquiries in a thoughtful and deliberative manner that will 
not undermine the legal case against the alleged shooter.
    I would also remind the members of the conditions under 
which the Department shared the annex associated with this 
report, that we would not discuss its contents publicly and ask 
that members respect those conditions. The primary concern of 
this committee is the safety of all those who serve and/or 
support our armed forces. We owe this to our service members 
and the Department of Defense [DOD] civilians and, of course, 
the family members.
    At this time, I turn to my friend, the ranking member, Mr. 
McKeon, the gentleman from California, for his remarks.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 41.]

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Secretary West and Admiral Clark, I join Chairman Skelton 
in welcoming you and thanking you, again, for answering, once 
again, the call to duty to serve your country. You had a short 
time to develop your findings and recommendations, and I 
compliment both of you with regard to their breadth and scope.
    In short, you have documented and highlighted the lack of 
preparedness by the Department of Defense and by this nation to 
first recognize and then deal effectively and comprehensively 
with the existing and growing internal domestic terrorist 
threat. This threat is not a Department of Defense problem 
alone. As your report points out, an integrated synchronized 
nationwide effort will be necessary to ensure national 
preparedness to prevent and respond to future domestic acts of 
terror.
    Major Hasan may have been an individual actor in the Fort 
Hood shooting, but the radicalization of an officer who took an 
oath to support and defend the constitution of the United 
States against all enemy, foreign and domestic and to bear 
truth, faith, and allegiance to the Constitution should send 
shock waves through all Americans as to the power and reach of 
an enemy like Al Qaeda in Yemen to generate such radicalism 
among other U.S. citizens.
    Al Qaeda in Yemen declared war on the United States with 
the attack on the USS Cole in 2000. While the U.S. has taken 
actions to curb their power and influence as an external 
threat, this nation and its allies seemingly have also taken 
action to assist in the organization's growth.
    For example, in 2006, the escape of 23 members of Al Qaeda 
from a maximum security Yemeni prison, including several who 
attacked the Cole, led to the formation of Al Qaeda on the 
Arabian Peninsula. The 2007 release from Guantanamo Bay of Said 
Ali Shari, one of the first detainees at that prison, allowed 
him to join Al Qaeda in Yemen and to help plan the Christmas 
Day attack on Northwest Flight 253.
    Moreover, the nation has not learned the lesson from 
September 11th that organizations that have information about 
potential or actual terrorists must share that information with 
all who might act to prevent terrorist activities. As is 
becoming apparent, such was not the case in either the November 
attack by Major Hasan, who had Internet contact with Al Qaeda 
in Yemen, or the attempted Christmas day bombing of Northwest 
Flight 253 by a terrorist acting under orders of Al Qaeda in 
Yemen.
    With regard to the Fort Hood shootings, your report is 
clear that Major Hasan's supervisors were aware of his 
shortcomings as an officer and medical professional and failed 
to act appropriately, and the report is strangely silent on 
whether or not Major Hasan gave any clear evidence of his 
radicalization or whether there were any substantive clues 
about that radicalization that his supervisors should have 
acted upon. I hope that your testimony will address these 
issues.
    The report also points out numerous personnel policy 
shortfalls that contribute to the Department's unpreparedness 
to deal with internal threats. Among the many findings, there 
was criticism of current policies, practices and procedures 
related to identifying potentially violent behaviors, 
information sharing, the accommodation of religious practices, 
counterintelligence activities in cyber space, and definitions 
of and responses to prohibited activities.
    Although you make no specific recommendations as to how to 
resolve these issues, you are clearly suggesting that these 
policies, practices and procedures need to be refocused, 
tightened and implemented with renewed vigor. Such a course of 
action suggests the possibility for closer government scrutiny 
by DOD and other agencies, for example, of various electronic 
social media, such as Facebook, Twitter and Web pages and e-
mails of U.S. citizens. The report is silent on how much 
initiative should be balanced against the First Amendment and 
privacy concerns. I would be interested in your views on this 
issue.
    Finally, you made six recommendations for immediate action. 
I would hope that, in your testimony and the follow-on 
questions, you could address three of them in detail and why 
you singled out these three from among all the other 
recommendations for immediate action: Number one, the need to 
synchronize continental United States DOD emergency management 
systems with the national emergency framework; two, the DOD 
enhancement of the Joint Terrorism Task Force; and three, the 
creation of a DOD entity to concentrate in one place the DOD 
effort to gather, analyze and interpret data useful for 
identifying indicators of potential violent action and to 
create a comprehensive and usable catalog of those indicators 
that can be updated continuously and made available throughout 
the DOD and the military services.
    In closing, I want to thank you again for your past and 
continuing service to this nation. Your report is a significant 
first step in identifying the areas that need to be improved if 
this nation is to be safe from internal domestic terrorist 
activities.
    Thank you very much. I yield back.
    The Chairman. I thank the gentleman from California.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 44.]
    The Chairman. Now the witnesses.
    The Honorable Togo West.
    Secretary West.
    Secretary West. Thank you, Mr. Chairman. If I might, Mr. 
Chairman----
    The Chairman. Make sure the----
    Secretary West. There we go. I have it now. Thank you, sir. 
I wonder if you have our written statement, I wondered if we 
can submit it to you for inclusion in the record.
    The Chairman. Of course. Both written statements will be 
submitted in the record without objection.
    Secretary West. We will take just a few minutes, Admiral 
Clark and I, to hit some highlights that we would like to call 
to your attention. I will go first, and then, with your 
permission, he will pick up.
    The Chairman. Very good. We look forward to it. Thank you, 
sir.

STATEMENT OF HON. TOGO WEST, FORMER SECRETARY OF THE DEPARTMENT 
       OF VETERANS AFFAIRS, FORMER SECRETARY OF THE ARMY

    Secretary West. Mr. Chairman, Congressman McKeon, 
distinguished members of the Committee on Armed Services, as 
pointed out, more than two months ago, on November 5th, 13 
people died, 12 members of the uniformed military and one 
civilian; and 43 were wounded from a lone gunman who walked 
into the Soldier Readiness Center in Fort Hood and began 
firing. It was a day of tragedy, and it will be remembered as 
such.
    Shortly after that event, Secretary Gates empanelled this 
review and asked Admiral Clark and me to chair it, and as has 
already been noted, we did so, and the report has been 
submitted to him, and it is now before you.
    They asked us to take a careful look at personnel policies, 
at procedures for force protection, emergency response measures 
and support of those who provide medical care to those who 
serve. He also asked us to take a look at how the Army applied 
its policies and procedures to the alleged perpetrator.
    Briefly, we organized ourselves into five teams, each led 
by a senior official, and each was assigned one of those--the 
first four tasks and also the fifth task. The reports from each 
of those are in the report before you as taken by us and viewed 
by us, edited by us and changed to reflect--and modified to 
reflect our view on what could be concluded, what could be 
findings, what could be recommendations.
    There is, in the beginning, on Chapter 1, a one-page 
summary of what we saw and found and concluded with respect to 
the alleged perpetrator. And as the chairman has noted, the 
remainder of it, the details are in the restricted annex, which 
is available to you.
    We did not, because there was already underway, look into 
the intelligence aspects. That was assigned to a different 
review, and we were directed in our terms of reference to avoid 
interfering with it.
    We did not, because it is under control of military justice 
authorities, look into the criminal aspects of this matter. 
Again, we were instructed not to interfere with that, and 
similarly the FBI [Federal Bureau of Investigation] has had a 
separate review going forward to look into the sharing of 
information portions that have to do with them.
    Nonetheless, our mandate was widespread. It was directed 
towards having us look to find gaps and deficiencies, as the 
Secretary mentioned, in policies, procedures, practices by the 
Department of Defense and the services across the board.
    With respect to the alleged perpetrator, you will note that 
we state openly in Chapter 1 that several military officers did 
not apply Army policies to the alleged perpetrator. We also 
recommended that that finding and similar findings that are 
reflected in the annex be referred by the Secretary of Defense 
to the Secretary of the Army for review as to responsibility, 
accountability, and such other action as he shall deem 
appropriate. He has done so. The referral has been made. The 
Army has that review underway now.
    Before I turn this over to Admiral Clark to fill in some 
details with respect to the review and the report that you 
have, three observations I think are important to point out. 
First, what we learned is that there is never enough 
preparation. There is never too much preparation. Authorities 
at Fort Hood had already anticipated a possible mass casualty 
event, as reflected in their emergency response plans. And 
their response on that day showed that preparation.
    Two minutes and 40 seconds after the 911 call was received, 
first responders were on the scene of the shooting. By first 
responders, I refer specifically to members of the Fort Hood 
security team. A minute and a half after their arrival, the 
assailant was incapacitated. Two minutes and 50 seconds later, 
two ambulances and an incident command vehicle from the post 
hospital arrived and began to provide life-saving health care. 
With that response, lives were saved.
    And yet 13 people died. Scores more were wounded. We can 
prepare better. We must plan with greater attention and we must 
make the effort to look around the corners of our future and 
anticipate the next potential event in order to deflect it.
    Secondly, we need to pay attention to today's hazards. The 
fact is, we need to understand the forces that cause an 
individual to radicalize, to commit violent acts, and thereby 
to make us vulnerable from within.
    Thirdly, there is much in this report that is about 
violence, violence by a service member against his or her 
colleagues. The effort is to detect the indicators that one 
might commit acts of violence, to catalog them, to make them 
available of the persons who need to know what are the 
indicators and where have the indicators been noted and then to 
prepare ourselves to act when that evidence is before us, to 
make it available to our commanders so that they can act and to 
be clear about their authority.
    On further note, as has been pointed out, we were asked to 
do this report within 45 days. The Secretary clearly had in 
mind that there would be follow-on reviews of what we would 
come up with. For that reason, although we have cast our net 
widely, there is--there were also boundaries simply in terms of 
what the 129 or so souls who are committed to our leadership 
could accomplish. And thus you will find there is space left 
for the follow-on reviews.
    Often our recommendations account in terms with the need to 
pay closer attention and to closer review that.
    That, Mr. Chairman and Mr. Ranking Member and members of 
the committee, is how we structured ourselves.
    And now if I may turn to Admiral Clark.
    [The joint prepared statement of Secretary West and Admiral 
Clark can be found in the Appendix on page 46.]
    The Chairman. Admiral, we welcome you at our hearing. Thank 
you.

STATEMENT OF ADM. VERN CLARK, USN (RET.), FORMER CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Clark. Thank you very much, Mr. Chairman.
    And Mr. Chairman, Mr. McKeon, it is a privilege to be here 
again today to take this opportunity to talk to you about the 
review that Secretary West and myself have co-led. So let me 
get right to it. I know you have questions.
    First, let me talk briefly about force protection. The 
principal message is this: There are many policies, dozens of 
policies, in the Department about force protection. We have 
built lots of barriers since 9/11. That said, existing policies 
are not optimized for the internal threat, and the threat that 
we saw, witnessed at the Fort Hood incident was evolving inside 
the barriers.
    Second, let's talk about ID-ing employees who can be a 
threat in this kind of circumstance. It is a difficult 
challenge. The reality is that there is insufficient knowledge 
and guidance to identify individuals. Guidance concerning 
workplace violence and the potential for self-radicalization or 
radicalization in general, as Secretary West indicated, is 
insufficient, and the key here is that we focused on violence 
of any kind. What we found was a lack of clarity for 
comprehensive indicators which then limit the commanders' or 
the supervisor's ability to recognize these potential threats, 
and so it doesn't matter if we are looking at somebody who 
might be inclined to hurt themselves--and by the way, the 
Secretary of Defense had that specifically in our terms of 
reference, incidents of suicide or criminal and gang behavior 
or somebody advocating supremacist activity and doctrine or 
family violence or the evolving threat, like radicalization, 
identifying the key indicators is critical to focusing the 
force on the threat.
    So our focus was on violence that comes from any kind of 
behavior. But what we found especially was that policies on the 
internal threat are inadequate. Prohibited behaviors and 
actions need to be addressed. And our report says specifically 
that such guidance exists, but it is incomplete for the day in 
which we live.
    Let me talk briefly about information sharing. The 
Secretary of Defense indicated Friday in his reaction to our 
review that we saw a requirement to create the ability to adapt 
rapidly in the changing security environment which exists 
today. Anticipating new threats, bringing a widely continuously 
evolving range of tools and techniques and programs into play. 
Robust information sharing is absolutely critical. Along with 
that, the command-and-control system to convert information 
into real decisions and real actions. It requires active 
information gathering, and we must remove the barriers, all of 
the barriers. Information sharing is a key element allowing 
decision makers to connect the dots. We have got to get the 
information, these indicators, to the appropriate levels of 
command.
    And let me speak briefly about the response that we saw at 
Fort Hood because the Secretary asked us to address emergency 
response. As Secretary West has indicated, we were impressed 
with what we saw at Fort Hood.
    Ladies and gentlemen, I served for 37 years. Secretary West 
and I went down there on the second day after the formation of 
our team. What I saw was the best after-action report I have 
ever seen in my life. With the kind of candor that was 
impressive. Lots of good news there.
    The base personnel were prepared. They were trained. They 
took appropriate action. Their action was prompt, as the 
Secretary indicated. Their response to the active shooter was 
impressive. There were courageous acts. The first responders, 
the local law enforcement personnel, DOD civilians, health care 
providers, all of their actions prevented greater loss.
    That said, we still believe it can be done better. We have 
got to focus on better tools for commanders, focus on violence 
prevention in whatever form it exists. We must adapt and evolve 
to the rapid change. We must understand that there is no single 
point solution here. Change is going to continue at a rapid 
pace. We have to share information so the right people can 
connect the dots and exercise against the most stressing and 
pressing scenarios to make sure that we have it right.
    So we were impressed with what we saw at Fort Hood, both 
the military and civilians on base as well as those in the 
community who were key players in the outcome of November 5th. 
And all of this reminds us of the greatness of our people, the 
strength of our nation, and resiliency and character of our 
people.
    So, speaking for Secretary West on this point, and the rest 
of the team, our hearts go out to the families of those that 
were lost and those that were wounded in this incident. And the 
thrust of our activity, of our effort, has been to do 
everything we know how to do, to help the Secretary of Defense 
put the spotlight on those immediate areas that need to be 
addressed in phase two of his organized effort.
    Thank you very much, Mr. Chairman.
    I look forward to your questions.
    [The joint prepared statement of Admiral Clark and 
Secretary West can be found in the Appendix on page 46.]
    The Chairman. Admiral, thank you.
    Secretary West, Admiral Clark, we thank you for your very 
thorough and telling testimony. It appears to me that there 
were two disconnects that lead to a major question. Disconnect 
number one is the actual performance of the alleged shooter on 
the one hand, and the OER and academic evaluation. The second 
disconnect would be one of intelligence-type, whether that 
reaches the right superiors or not, which leads to the bottom 
line question, which was a great deal overlooked because this 
was a medical person in a special area in which there is a 
shortage.
    Mr. Secretary.
    Secretary West. Mr. Chairman, I pause just for a minute 
because I am trying to reflect on how much my answer takes me 
into discussion of an area we have covered in the annex rather 
than the report.
    The Chairman. Do your best.
    Secretary West. Thanks for encouragement. But I would think 
that we could say, in general, as to the way officers are 
evaluated, especially medical officers, and the way that is 
reported, that what we have concluded and have said to the 
Secretary of Defense, that is this: First, the disconnect you 
noted is correct. That is what we mean when we say that the 
policies were not applied, that things witnessed were not 
always reported where they needed to be reported, and that, in 
fact, there are contradictory indications.
    And with respect to the second--and we recommended to the 
Secretary of Defense that he take some public steps about this, 
that we had to say to the force--or he had to say to the 
force--the Department has to say to the force, evaluations make 
a difference, and we can't do the job of leading or protecting 
against threats if honest evaluations are not done by those who 
have the duty, the information, and the authority to do so.
    The Chairman. Admiral.
    Admiral Clark. A major piece of this, Mr. Chairman, is what 
is part of the record. In our report, we don't tell the 
Secretary of Defense what parts to make, what should go into 
the record. We say, he asked us for gaps and weaknesses. And so 
we said, look, if an individual's track history doesn't stay 
with them, that leaves you open to potential weaknesses and 
gaps. So there are certain things that are required by 
regulation that cannot move from station to station with an 
individual. That is something that needs to be looked at.
    With regard to the issue of performance appraisal, we all 
know that performance appraisal is a challenge in any 
environment. That said, we used specific terms to say things 
that we wanted to connote. We didn't use just the term 
leadership. We used the term ``officership''.
    If you look on Page six and seven of our report, we say 
specifically what we think happened here. We believe that some 
of the signs were clearly missed, or they were ignored. I 
cannot tell you which, and I can't go further than that because 
of the nature of the restrictions that are--of the information 
that is in the restricted annex.
    But there is no doubt in my mind or Secretary West's mind 
that there are issues here, and if there were not so, we would 
not have said that to the Secretary of Defense.
    With regard to the intelligence matters, there--so we 
didn't do the intelligence review. The President had already 
outlined and authorized a review, and we were given specific 
guidance: Do not interfere.
    That said, Mr. Chairman, since our review team--began this 
action, there have been a number of things in the public domain 
that tell us that they--there is agreement that the 
dissemination of information process needs to be improved, and 
there was a release on Friday by the FBI that talked about the 
improvements that are going to be made and are being made in 
cooperation with the Department of Defense.
    Our encouragement was this: We didn't tell them exactly how 
to do this. By the way, we don't do policy. We were reviewing 
policy. You want people that are going to do policy to be 
confirmed by the Congress, not two people who are called on to 
do this in a matter of few weeks, I believe. In fact, I am sure 
of that, having been there. So what I am suggesting is, we 
suggested whatever that outcome is, what needs to be done is to 
ensure that the right information gets in the hands of the 
operational command to give them a chance to connect the dots.
    The Chairman. Admiral, thank you very much.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Mr. Chairman, I ask unanimous consent that the gentleman 
from Texas, Mr. Burgess, be allowed to participate in today's 
hearing after all committee members have had an opportunity to 
ask questions.
    The Chairman. Without objection.
    Mr. McKeon. Thank you.
    Mr. Secretary, Admiral, the concern that I think all of us 
feel probably most keenly is, are there other potential threats 
out there? Do we have other potential people that are in the 
system and the system is not adequately working to find them, 
and are we open to further problems such as we have seen? The 
report was strangely silent on whether or not Major Hasan gave 
any clear evidence of his radicalization or whether there were 
any substantive clues about that radicalization that his 
supervisors should have acted upon.
    We know from media reports of at least three instances 
where he acted in a manner, in hindsight, which should have 
raised concerns about his allegiance to the United States, 
possibly prompted action by his supervisors. His statement that 
Sharia law trumped the Constitution, his religious discussions 
with patients and his presentation to his colleagues that 
equated suicide bombers to service members who died for this 
Nation.
    What substantive evidence did your review turn up regarding 
Major Hasan's actions or statements that gave or should have 
given his supervisors any indication of his radicalization? To 
what degree did the three instances I cited in my opening to 
this question arouse concern by Major Hasan's supervisors about 
the appropriateness of such statements or actions and what was 
done with regard to those concerns? What policies, practices, 
and procedures limited or blocked the ability of Major Hasan's 
supervisors to appropriately assess his developing 
radicalization? And then I am concerned if political 
correctness was involved here and if the need for psychiatrists 
maybe overlooked some things. Those are kind of my major 
concerns.
    Secretary West. Mr. McKeon, let me try to answer that. And 
I will try to answer, remembering there is a military justice 
investigation underway and that I need to be careful not to 
deal in evidence that will be used there.
    First of all, let me say that, overall, I believe that in 
the restricted annex, you will find a discussion of items you 
mentioned. But on the question of whether signals were missed, 
whether there were indications, let me say this: We have said 
in the open report, in our--in the chapter we devoted to it and 
also in our executive summary, and in fact I just heard the 
Admiral talk and refer to that language again: Some signs were 
missed. Others appeared to have been ignored.
    The fact is that there was evidence and that is what we are 
referring to for signs for senior officials to see, to note and 
react to. We explain those in specifics in the annex. And our 
concern is yes, there are policies in place that should have 
made the reaction to them possible. It should make that 
reaction possible throughout the force. And yet, we have 
indications that they were not acted upon, the need for 
properly recording in either the SSAER, the Senior Service 
School Academic Evaluation or in the OER, the officer 
efficiency report. SSAERs are used in all the military schools. 
That is how we evaluate them, both academically and as 
officers, to have those accurately reflect what is happening is 
an important tool for telling future commanders what has 
happened but also for making judgments on those officers as 
they progress.
    Secondly, I would add this. Again, perhaps as important as 
anything is once recorded, the information needs to be--to get 
to the people who have to make decisions. I think Admiral Clark 
already pointed out the fact that we have several policies that 
say--and we mention this in our report--or practices that keep 
us from keeping certain kinds of information beyond the period 
in the person's life, in the service member's life in which 
that is recorded. If there has been alcohol or drug use and a 
rehabilitation program, that information is not forwarded in 
the files, it is no longer in there after that is done. And 
there are other kinds of information as to which we have 
policies that specifically exclude keeping them and making them 
available in the file to go forward. We recommend that be 
looked at.
    There are times when it is important for us to be aware of 
changed circumstances. And the circumstances we face today--I 
thought you were going to ask about this when you first 
mentioned it--could this happen again? Could an incident happen 
again? As long as there are humans serving in the armed forces 
of the United States or anywhere else, in government and 
throughout our society, self-radicalization, becoming upset 
because you believe that you have been inappropriately treated 
in your workplace, prejudices of one sort or another can lead 
to violent acts. We need to equip our force and our commanders 
with the ability to detect it by getting them the information 
that you refer to and by equipping them to act on it.
    Mr. McKeon. If I may, the things that you addressed, the 
alcohol or other prior things are things that affect the 
workplace don't address the radicalization and that seems to be 
the real crux of this. And that is the thing I think we need to 
be mindful of as we move forward. Admiral.
    Secretary West. May I just say you are right and I should 
have mentioned the fact that those are also indicators, that is 
what gets said, how one relates to one's colleagues and 
professors, a view that suggests a willingness to act on that. 
I am sorry. You wanted to----
    Admiral Clark. And I concur with your assessment also. And 
I align myself with Secretary West's comments. I won't repeat 
all of those. I could answer your question in a very fulsome 
way if we were in a closed session, and we are not, and would 
welcome the opportunity to do that, because there are real 
answers to your questions. And those will be spoken to in the 
right time, when it is--there is authorization to release that 
kind of information.
    Let me just make one comment about your question, are there 
others out there? I want to make sure that it is clear why I 
don't have an answer to that, that the answer to that would not 
be evident by researching the clarity and viability of the 
policies, which is fundamentally what we have done. The 
Secretary asked us to find these weaknesses on our core and our 
structure and our architecture. And so I don't know how to 
express the breadth of that over the course of this whole 
discussion. It sometimes doesn't come through with just the way 
the written word comes out.
    But that answer specifically has to come from the 
collection of intel sources. We did not pursue intel at all by 
direction, and we weren't seeking to--our task was--he sent us 
in a different direction. He sent us there, specifically, 
though, to help equip the rest of the Department so they 
wouldn't go off on a broad fan hunt themselves, that they could 
put the crosshairs on the areas they had to go after first.
    And so as a follow on to the things that Secretary West 
addressed, it is clear that your question about--so what does 
the nature and the breadth of this look like, that question has 
to be answered. And we simply--we didn't go there because we 
weren't interested in it. We went there because that was not 
our task and we really--I do not have an answer for you.
    That said, the things that Secretary West commented on, we 
do believe that there are indicators, and those indicators need 
to be examined because the issue of self-radicalization is one 
that is new to us in many, many ways, and I listed that--a 
series of kinds of behaviors that could lead to violence that 
are well documented in policy and in directives and programs. 
Such is not the case when we talk about self-radicalization. 
That needs to be addressed with speed.
    Mr. McKeon. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. We are now into the five-minute rule.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman, Secretary West, Chief 
Clark. Thank you so much for joining us, and thank you for your 
service.
    Maybe we can go back a little bit and you can inform the 
committee as to how he got his promotion, his evaluation, his 
performance. Was he promoted by a board? How do you promote him 
from a captain to a field grade officer major? Were there 
several members sitting on this board that recommended that he 
be promoted? Maybe you can give us some insight as to how that 
was done.
    Secretary West. Congressman Ortiz, again, trying to be 
mindful on our part, that we have explored this in some detail 
in the restricted annex, which I believe is available to you, 
and that we want to be careful not to delve and talk in this 
session about things that will have an effect on the military's 
investigation. The standard practice for consideration for 
military medical officers in the Army is, yes, they are 
promoted. They are considered by a promotion board. That board 
considers their officer evaluation reports, and it also 
considers the record from their academic training, SSAERs, as I 
mentioned. So they make their judgments based on that, and that 
happens in the case of every medical officer, and so it would 
have happened in the case of this officer.
    Mr. Ortiz. There are several members sitting on this board. 
Are they allowed to come up with a dissenting view that maybe 
they were not all in agreement, that this individual should be 
promoted?
    Admiral Clark. These boards are controlled by statute 
directive. In my time as the chief, this was one of the always 
very important things that the Secretary of the service and 
myself considered, including specifics about the guidance that 
went to the board, and the board then functions in accordance 
with the guidance it gets from the service Secretary.
    The statutory process precludes controls, is a better way 
to say it, controls in very exacting terms the kinds of 
information that can come before the board. And this is to 
ensure that everybody has an equal opportunity to promotion and 
all the things that go with that that has been developed over 
the years.
    If you take our comment on pages six and seven of the 
report, when we comment on the fact that it is our view that 
some things were missed or overlooked, that can give you a 
glimpse inside of what our opinion is. And again, I would 
love--I don't like the idea that I am inhibited in what I am 
allowed to talk to about in an open hearing about this. I might 
wish it was otherwise. But I would just say to you this: You 
can take comfort in the process if that communicates to you. 
You can take comfort in the process.
    What they are allowed to review is what is specifically in 
the OERs or any material that the member chooses to put in 
front of the board. And there is a very exacting process that 
has to occur if there is other information that is going to be 
placed in front of the board. And that is all I can say in an 
open hearing. And with the restricted nature----
    Mr. Ortiz. I understand. And the reason I ask this 
question, I was just wondering whether, when this board met and 
maybe if there were dissenting views, if they were able to 
filter all the way to the chain of command?
    Admiral Clark. I can only repeat what I said. I wish I 
could say more.
    Mr. Ortiz. Well, thank you so much. I don't want to take 
too much time. But thank you for your service. And I just hope 
that we can get to the bottom of it, and the reason I am asking 
these questions is because, not only should we be worried about 
our soldiers who might turn out to be bad apples like this guy, 
but we saw the killings of the CIA [Central Intelligence 
Agency] in Afghanistan. And we are just wondering if we can 
also--and maybe this is not in your line--but I worry about our 
service people in Afghanistan and Iraq and hoping that we don't 
get those bad people to be able to infiltrate our soldiers 
before they do something like this.
    Mr. Chairman, thank you so much.
    The Chairman. I thank the gentleman from Texas.
    Mr. Bartlett from Maryland.
    Mr. Bartlett. Thank you both very much for your service.
    I have a button with a message which I cherish. It was 
given to me by Hap Baker, who was a principal architect for the 
guidance system for the Patriot missile. I knew him primarily 
in his role as an unapologetic defender of the Second Amendment 
right, and I never saw Hap Baker without his hat and his button 
on that said, ``politically incorrect and proud of it.'' 
Indeed, that button was such a part of Hap Baker, that I 
attended his funeral and was pleased to see that it was there 
on him in his casket. I probably should be wearing that button 
today because maybe I am going to be politically incorrect.
    I suspect that these officers might have felt that they 
were following policy because they had two policies which were 
in conflict. One of them was to be politically correct [PC] and 
not appear to profile. The other was to offer an honest 
competent evaluation of the performance of the officer. Now, 
one cannot get inside their head, but I would suspect that they 
may have given more weight to the politically correct policy 
that you don't profile.
    By the way, we do profile, and people understand that. If 
you are looking for a rapist, you are probably not looking too 
hard at preadolescent males and women. I suspect if the 
ethnicity had been different here, that the policies might have 
been applied differently. How do we get a proper balance 
between political correctness and the obligation to honestly 
and fairly evaluate?
    Secretary West. Do you care who you get your answer from, 
Congressman? May I take that on?
    Mr. Bartlett. Sir?
    Secretary West. Were you addressing that to me or the 
Admiral?
    Mr. Bartlett. To both of you.
    Secretary West. Then I will take it on. I hear the term 
politically correct all the time. And I know that people think 
they know what it means, but I am not so sure. I think what we 
are talking about, quite frankly, is, how do we do what we have 
to do to get the information to spot people who are likely to 
harm our service members, on the one hand, versus, how are we 
careful that in so doing we are not taking steps that lump 
people into a group and keep us not from favoring them but from 
attributing characteristics to the entire group and thus 
convicting one person before we actually learn what is 
happening with that person?
    So I don't think there is a real tension here that we can't 
deal with if we realize this: In our force, we are already 
handicapped in trying to identify a potential violator by the 
fact that if it is a member of a military family, if he or she 
is a member of the military family who wears a uniform, they 
have access to our installations. They don't get searched. They 
have their cards. They put them in, and they get in. So the way 
that we stop them is to identify them ahead of time.
    And I think that if we made these recommendations in our 
report, that we can look for objective indicators. If you have 
objective indicators, if you catalog them--that is why we 
recommend it--an ongoing organization to do just like that, 
look at the indicators that a person might commit violence, 
make them available, and make our decisions on that basis, we 
will be able to get the job done. And we won't have to worry 
about PC or any other short-term expressions that suggest that 
we are not looking at them because they are in a group.
    Mr. Bartlett. I think that the average American would like 
us to be a little politically incorrect in circumstances like 
this if it is going to result in better security.
    Would you agree, Admiral?
    Admiral Clark. I absolutely believe that the people of the 
United States expect, and they should expect, that we will 
pursue the best security posture that we know how to possess. 
And certainly our people deserve nothing less. My take on this 
is that this is especially challenging, and this is why I refer 
to the Secretary of Defense, again, commenting on the nature, 
the rapidly changing environment in the last decade. The fourth 
generation warfare scheme is that our enemy intends to go 
after--pursue us in the scenes, and the inside, internal threat 
is an area that our review suggests very clearly that we have 
done an inadequate job identifying these indicators.
    Our focus is on identify the behavior so we equip and 
enable the commanders. I love one of the things that the 
chairman of the Joint Chiefs of Staff said that the day our 
panel, our review was set up, one of the reporters said 
Admiral, what are you--how do you look at this? And he came out 
clearly and boldly and said, I expect commanders and leaders in 
organizations to understand what is going on in their command 
and for the chain of command to be functioning in a vibrant way 
and that is the answer to these kinds of problems and 
challenges. The reality is that the guidance on what kind of 
behaviors to look for for the self-radicalized individual are 
inadequate.
    I will tell you that already some have already been 
published; I saw a review of one, and a message that went out 
in the U.S. Army yesterday. We have to move fast and this is 
the requirement.
    The Chairman. I thank the gentleman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Secretary West and 
Admiral Clark, it is great to see you both again, you have been 
great public servants for many, many years. I want to ask this 
issue that has come up in the discussions about the fact that 
we have an annex, which I did go and look at in this discussion 
today. I think this is going to be a frustrating experience 
trying to figure out where to go for the American people and 
policymakers if we have this dichotomy between a discussion and 
hear common generalities, versus talking about a specific case. 
I need to understand--by the way, that is not a classified 
document, it is for official use only. It is one thing if we 
had out in that room the criminal case file, interrogation, 
whatever is there.
    But in fact, what you all are conducting is an 
administrative proceeding based on the records that are in the 
military in order to problem solve. And it is not clear to me 
why the American people are not entitled to see because it is 
part of the problem-solving process, these unredacted reviews, 
career reviews or academic reports, or college transcripts, or 
whatever is in that record as part of an administrative 
proceeding.
    You are not putting those things out there, we have--you 
know, he did this performance in college and we have concluded 
then, based on that, that he is a criminal. I mean, help me 
with that. Here is the problem, you say it is it not the right 
time to have this discussion. When is the right time going to 
be? Will it be after I assume there will be a criminal trial, 
although that may not be, there can still be adjudication of--I 
am not talking about this case, but there is always going to be 
a potential question is someone mentally fit to go to trial, 
where will this all go?
    I don't know what the right time is going to be for the 
American people and the people in Texas and the military to 
have the kind of public discussion of this specific case. If I 
was a family member, I would not be satisfied with go to the 
annex and we will discuss it. I would want to know what 
happened with this specific case. So when is the right time, 
where is your advice coming from that we cannot--that you 
cannot in an administrative proceeding just put the documents 
out there of things that clearly occurred before the criminal 
investigation. So where does your advice come from and what was 
your specific advice with regard to an annex versus specific 
documents?
    Secretary West. Congressman, there are several aspects, but 
I think I can do them quickly. First of all, the specific 
question, where is the advice coming from, it is coming from 
the DOD lawyers. Secondly, what would it be based on? Well, it 
is based on a couple of things: First, yes, the annex is FOUO 
[for official use only]. What is contained in it has two 
effects. One is that much of it is from officer efficiency 
reports and the like, those are specifically protected. 
Secondly, the overall concern that is what contained in there 
will have an effect on the military justice proceedings. And on 
that score, we have already been warned not to discuss that 
openly. It is available to you.
    Thirdly, I would point out that even the annex, as you 
point out is redacted, is only redacted as to names. Everything 
else that we wrote is there disclosed, what happened as we 
found out, what we recommended, what is in the record, all 
disclosed in that annex.
    And I think, fourthly, the question, well, when is the time 
to discuss it. Yes, you have given the answer, it is after the 
conclusion of the military justice proceedings which may be a 
trial, I assume that is what everyone is preparing for, but I 
don't know it.
    I would make one other observation. We were not asked to 
find out what happened. We were asked to assure the Secretary 
of Defense that there were not gaps or deficiencies in the 
policies, practices, or procedures that would help us either 
identify such a person and deal with them, or protect the 
force, or be prepared for mass casualties going forward, or 
support military caregivers. And also to look specifically at 
how the Army applied its policies to the alleged----
    Dr. Snyder. That is where the gap is here today, because we 
can go back there and try to sort all this out in the annex, 
but it is going to be a frustrating thing for the American 
people to try to sort out where the policies applied, should 
the policies be different. I think lawyers, for the most part, 
will say this may upset the criminal trial, but we have got to 
be sure we are not throwing that net out so broadly of 
protection that it's going to keep us from making America 
safer, our military safer and avoiding these kinds of 
tragedies. I am not clear that we are at that point today with 
this publication of this annex.
    Admiral Clark. May I make one very quick observation? In 
order for the American people to understand this part of the 
process, so we have five teams and one of the teams dealt with 
the issues as prescribed in the terms of reference and as 
Secretary West has indicated. Look at the gaps, look at the 
weaknesses and look at the application here so that it is clear 
that we thought through the longer term process, the person 
that headed that effort for us was a four-star general from the 
United States Army.
    And it is not just coincidence that he has already been 
given the task by the Secretary of the Army. We recommended 
that the Secretary of Defense refer this, the findings that we 
have in hand to the Secretary of the Army, and the Secretary of 
the Army has named that same officer to proceed with the case 
in order to speed the process and rapidly come to a judgment of 
accountability.
    Dr. Snyder. Thank you.
    The Chairman. I thank the gentleman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. And to the 
Admiral and General, thank you, thank you very much. I have had 
the privilege of being with you in previous years when you were 
in uniform and it is a pleasure to see today and this important 
work that you have done to try to get to the bottom of the 
tragedy that happened at Fort Hood.
    I saw today in the Express, and it is not earthshaking 
news, but AP Hasan sanitized history. I want to take my 
question in a little different direction. I know those who 
evaluated his performances are probably hurting very badly 
because maybe they did not see what they should have seen or 
reported what they did see in his actions, but I am very--want 
to know the environment of where these psychiatrists in the 
military were working.
    And let me explain that. There is no excuse for what 
happened, none, and you have already pointed that out and you 
have made recommendations that I know that the Secretary of 
Defense and the Secretary of Army will follow many of those 
recommendations. I know there is an investigation going on by 
the military as this relates to what criminal actions might 
have taken place, but is there an environment where we have 
more and more of our troops with PTSD [Post Traumatic Stress 
Disorder] and more and more of our troops with TBI [traumatic 
brain injury] and other mental problems from going deployment 
after deployment after deployment.
    It is an environment that because we have not as many 
psychiatrists as we need in the military that maybe, and this 
would be your opinion, if that is anything you looked at in the 
investigation, but is an environment that we need to have these 
psychiatrists, we need to have these psychiatrists to help the 
families and to help the military. And so maybe, that is no 
excuse, maybe what should have been a red flag was not a red 
flag. I will ask you both if you would respond to that.
    Secretary West. I think I will give you my answer rather 
briefly Congressman, and then let Admiral Clark speak. I think 
you very well articulate what could have been a possibility or 
more specifically what could be a situation that we face today.
    Admiral Clark. You identify one of the things that I am not 
sure a lot of people understand and our report says that United 
States military has had people in the combat zone for 20 years, 
virtually 20 years. And so we all need to understand that there 
is stress on the force. Now one of the things that--and so I 
agree with you that these are realities, and these people--we 
came to the conclusion, and by the way the Secretary gave us 
specific instructions to go look at the care of the health care 
givers and we haven't addressed that today, we are of a 
conviction that they largely have been treated as a separate 
group.
    We believe they need to be treated just like the combatants 
do. They need the same kinds of programs and support and all 
that goes with that. And so we did not look at TBI, PTSD, the 
Secretary had a view, I guess, that he didn't need our view on 
that, he must have looked at that and he had that where he 
needed it. And so we came to the conclusion that these people 
are a critical part of the readiness posture of the United 
States military and so great care is required and programs to 
support them are required.
    Mr. Jones. Mr. Chairman, I want to thank both the gentlemen 
for being here today and their responses to each member's 
questions. Thank you for your answers to my question. I hope 
that my colleagues did hear as I think I heard your response 
very clearly. Thank you and with that I would yield back my 
time.
    The Chairman. I thank the gentleman.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you, 
gentlemen, once again for your continued service to our 
country.
    I want to ask you from a different angle something that I 
may be wrong on or it may be something to think and I didn't 
know whether you really had a chance to look at this incident. 
I think it is important for us to understand how we protect our 
forces internally, as you said, but I am looking more at this 
as an administrative issue, and certainly one section of it was 
what my colleague just talked about, our need for psychologists 
and people in the military and how difficult it is to get them 
in there.
    But I am looking at more at a sense of supervisor to 
somebody who works in this particular case the alleged 
attacker, because on the day that this happened as I was 
driving in the car, I heard a radio station where one of the 
direct supervisors for the last year and a half, he had now 
retired a Colonel, I believe, who had now retired and had been 
out of the military for about six months, was on a radio talk 
show talking about this alleged attacker. And I don't know if 
you all got that interview, but he went on and on about a half 
an hour about all the signs he had seen with respect to this 
alleged attacker. And how he never reported it.
    And so, I mean, I think it comes down to two things: One, 
it is always difficult as a manager, and if you go and you ask 
or you go and take a look at the surveys and ask what is the 
toughest part of being a manager, it is the firing of people or 
demoting of people, or the turning in of people. It doesn't 
make any of us feel good. So there is that just human reaction 
of, you know, I have somebody here who is crazy and how am I 
going to move him on--and we tend to move them on versus how do 
I fire him.
    Then there is the whole legal issues of how do we go about 
firing someone and how difficult it is to do that. So my 
question is, did you take a look at that? Especially with the 
whole issue of how much you can damage the career of somebody 
who has made the military career, and certainly I have heard 
from several soldiers of personal experiences where they are 
going to seek some help with a psychologist, for example, 
within the military, has come back to damage their career so 
much to the point where they have had to get out of the 
military.
    So were you given that information about this talk show and 
this particular gentleman and how he referred and how he saw 
all these signs and how he never did anything about it? And the 
only thing that gentleman said was, I couldn't wait fast enough 
to retire because this guy was a walking time bomb.
    And more importantly, when you look at administrative 
proceedings, do you have any recommendations of how we get to 
this very basic, I am a manager, but I don't want to hurt this 
guy's career, but he might be a crackpot?
    Admiral Clark. I wish to goodness that I was not 
constrained about talking about this. You might imagine how I 
feel about this having served 37 years and making the judgment 
that we have made in here. We said to use the word officership, 
we weren't just talking about the alleged perpetrator. They 
were responsible for developing him and educating him and 
training him and developing him in the field of medicine, and 
as an officer in the United States Army. Our impression and the 
words in our report are as straightforward as we can say them. 
It needed work.
    Ms. Sanchez. Any comments, Secretary?
    Secretary West. Yes, I would add this, with respect to your 
question about having heard or known something about that 
conversation you had, it is not specifically referred to in our 
report or in any of the information furnished to us. I have no 
doubt that the Colonel of whom you spoke was interviewed and 
the results of that interview are part of what is in our annex.
    So I don't think that what that Colonel had to say if he 
was indeed a supervisor has been lost or missed, that has now 
become part of the record for the military justice review 
frankly.
    Secondly, on the broader question of how, if we are going 
to--I am rephrasing it a bit, but if we are going to propose 
all these things designed to get this information and act on 
it, are we sure we are not pushing commanders and supervisors 
to damage the careers of those that is to whom they make a 
hasty judgment or a judgment based on not enough information. 
And that tension has certainly been there in the discussion 
especially in the team that did the work that supports our 
Chapter 2, which is on personnel policies and practices. In 
fact, we have a section called ``barriers to taking action'' on 
the information, because there is this tension.
    I had one officer by the way, and I am taking too long, who 
is actually in this room, who talked to me quite candidly about 
the tough decisions a commander makes in deciding when to move 
on information and when not. What will that do to the career of 
the person? Is it fair to record it? And that is even part of 
the policies on what we do or do not pass along from command to 
command, from section of a person's career to the next station. 
All those concerns are in there. And yes, you are right, we are 
in this report pushing for a relook at that very balance. And 
so the danger you mention is quite possibly there. Because we 
are saying it may be more important under the circumstances 
that we face today to look harder for the information and once 
we get it, to consider whether we don't need to, they make sure 
it is passed along to the right places and perhaps acted on, 
but the danger you mention is there.
    Ms. Sanchez. I thank the gentleman, and you, Mr. Chairman.
    The Chairman. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman. This hearing may be a 
little frustrating for some people, maybe to our witnesses 
because some of you feel somewhat constrained by you have been 
told to talk just in a particular specific area, fortunately we 
are not constrained and don't seem to fit into boxes very 
easily anyway.
    The term political correctness has come up a number of 
times this morning and it seems to be a high on my mind. It 
seems to me, standing back looking at the forest from a 
distance, you have a guy who was Muslim, okay. But we also know 
that some percentage of these guys get radical and they are the 
ones who start wars and things in the Middle East and blow 
people up.
    We have one of them who works for the military and he got 
radical on us and shot a bunch of people, that seems to be just 
the simple face of it, maybe that is not politically correct 
but the appears to be the facts.
    So my question is as I read through all this report, there 
is nothing that really makes any reference to theology or 
religion or what drives this guy. And I suppose maybe there is 
a difference of opinion, maybe some people think that somebody 
committed a crime, like someone just goes whacky in the office 
and decides to shoot some people, and perhaps the other 
perspective is that we are dealing with an act of war or an act 
of terror where someone, because of an ideological motivation, 
decided that something tripped him and decided it was time to 
do holy war.
    You have been tasked, though, gentlemen, with looking at 
procedure, it seems to me, that procedure would have to take a 
look at people who are potentially time bombs, even if it is a 
time bomb motivated by theology or by some sort of radical 
religious view. And so my questions are several: First, was it 
an act of terror? Mostly looking for a yes or no.
    Second of all, procedurally, is it possible for us to say, 
hey, watch out for people that are from a certain sect of 
Mohammed or whatever it is that potentially can go crazy, and 
can we specifically look at that when you are looking at 
somebody's performance appraisal and watch for that. I guess 
people would call it profiling, but some people would also call 
it common sense. And those are my two main questions, if you 
could hit those quickly because I have another one or two.
    Secretary West. I will be quick and I will go directly to 
the second one first. It is always possible to look at acts or 
statements and it doesn't matter whether their statements of I 
don't like that guy because of the way he walks or the color of 
his hair, or I have a concern and it is based on what I believe 
my religion tells me to do. I do not think religion or theology 
are off bounds when we look at indicators of potential 
violence.
    With respect to----
    Mr. Akin. So procedurally we can do that, it is not illegal 
when you are reviewing somebody's profile or their jacket comes 
before you and this guy happens to be this and this, and you go 
okay, watch, we are okay to say to look at it more closely.
    Secretary West. Well, years ago I was the DOD general 
counsel, I am not today so I am not going to opine on it 
legally. I am just going to say we recommend that we look at 
all the indicators.
    Mr. Akin. Okay. Is it an act of terror as the first 
question?
    Secretary West. I am going to pass on that one. I was not 
asked to do that, I wasn't asked to try to determine it. I know 
this, the people who died were terrified and the people who 
were wounded were, too.
    Mr. Akin. Thank you, sir. Admiral.
    Admiral Clark. Secretary West's answer to the question is 
exactly right. And my early focus in my opening statement about 
violence and indicators is all about the subject that you are 
raising to us. And I notch down all different kinds of 
categories of people that the focus is violence. We didn't care 
where it came from. We wanted to come forward with 
recommendations that said go look at this. In an area of self-
radicalizations the indicators are not understood and therefore 
we do not react that well because we have not spent the time to 
talk within the Department about what those indicators are.
    As I indicated just Friday the Army's publishing the best 
that they have got today. Our recommendation says you need to 
put together a group of people and look at this long term. This 
isn't going to stop, this is not a single point solution.
    Mr. Akin. Admiral, could I just cut in because my clock is 
running pretty tight here. I still don't think we have this 
figured out. And part of what concerns me is that after this 
event at Fort Hood we had this guy Louie Soffi speaking, Louie 
Soffi is part of the Islamic society of North America, and 
according to the Justice Department, is connected with the 
Muslim brotherhood. We are talking about a guy who is one of 
these money launderers who is a radical Islamist, and he is 
speaking to make people feel better at Fort Hood about Islam.
    I think we need to build in somehow the political 
correctness is overriding looking at the common sense that 
there are factors that drive this behavior and that has to be 
built into the model, I am out of time. I would like a 
response, Admiral.
    Admiral Clark. May I?
    The Chairman. Yes.
    Admiral Clark. This is a two-way street, we know that we 
have over 3,500 Islamic believers serving effectively and 
faithfully. And so the street runs both ways.
    The Chairman. I thank the gentleman. Mrs. Davis.
    Mrs. Davis. Thank you. And Mr. Secretary, Admiral Clark, 
thank you for taking on this assignment.
    Secretary West, it is my understanding that prior to this 
service, you were on the Walter Reed, the group that looked at 
Walter Reed and the independent review group, it is my 
understanding and this really picks up on something Admiral 
Clark said as well, in that looking at the care of the mental 
health professionals or providers or professionals overall, 
they looked at the issue of provider fatigue, medical provider 
fatigue.
    What can you tell us about what you saw in that instance 
and the review and the questions that were raised, have we made 
progress? I know that Admiral Clark was saying yes, we need to 
look at those, and how we are treating and dealing with this 
issue. What have we done?
    Secretary West. I had the answer for you until you asked 
me, ``What have we done?'' Because I think we need to be able 
to give you that answer more specifically than I can today. I 
remember sitting in a hearing two years ago at Bethesda Naval--
at the National Naval Medical Center in Bethesda and seeing a 
health care professional, an officer stand up in the stands and 
say it is good that you're here and that you are looking at the 
care that we provide to those who have served and have been 
wounded, but keep in mind and your term is a good one about the 
fatigue for the caregivers and its effect on us, because if we 
are not whole in body and soul and mind and all those things 
then we don't deliver the best of care.
    So it was very powerful and it was one of the reasons why I 
believe the Secretary included it in terms of reference this 
time. What we found is that whatever is being done, more of it 
needs to be done and our recommendations say that.
    Mrs. Davis. Do you have any way of knowing how we are 
monitoring that? Who is overseeing that to understand the 
extent to which we do have a lot of people hurting out there 
who are in tough positions?
    Secretary West. I think professionals that have periodic 
surveys and the like, but in terms of a real look, this may 
have been one of the first ones that had this much chance to 
look at it, and so that is why we devoted so much time to it in 
our discussion, but I don't know how on an ongoing basis it is 
monitored other than the way they are assessed as they 
developed professionally.
    Admiral Clark. Let me just add one thought, this is a real 
challenge because when unique 1H's go deploy, the whole group--
the person's chain of command at home base don't go with them 
in the medical sense very often, you know they go as 
individuals. We found--so we examined the policies and what we 
see is that when the person gets home, who assumes 
responsibility for the monitoring function, that is something 
that needs to be examined.
    And then also look at policy in a way they are put in 
place. For example, in order to care for the combatants there 
is a policy in one of services where the docs coming home go. 
In order to provide continuity of care for the combatants, they 
go with them to their home--that extends their deployment, 
there is a cost to that. I am not saying it is the wrong 
policy, it might well be the right policy, but somebody has to 
examine this. And as I said, we have not treated the docs, the 
medical personnel, like the combatants in terms of the kind of 
programs and processes to support them that the combatants 
have.
    Mrs. Davis. Thank you. I know there are some practices of 
embedding physicians with national guard, for example, as part 
of TRICARE, and that sounds great, but there may be some 
downsizing.
    Getting to another personnel issue, because I think it has 
been addressed about the appropriate judgment and standards of 
officership as you spoke about and we know and even not 
necessarily in the military, but in medical school, generally, 
that it is difficult to perhaps not--inhibit a person's career 
in some way, and that that has its downside in terms of the 
processes, personnel practices, we have talked about that you 
have to go through.
    Are you are you--part of what you look at also to say how 
many times have we intervened in careers to suggest that people 
are in the wrong place. Is that something that as you looked at 
this, you have identified that yes, in fact we see this is 
actually working, or in fact, it doesn't look as if that is 
happening in many instances at all?
    Admiral Clark. I fully expect the phase two examination 
where they drill deeper has to look at this, because we raised 
the foundation for it to be looked at in our report. What I 
really believe has to happen is that they need to understand 
the process that they have. What we found is there is the 
educational side of this, the doc side of this, and that is one 
review group. And then there is the officer side of this. The 
Secretary and I were having a discussion one afternoon talking 
about the specifics of this and wondering about the what-ifs. 
There is no way to know if this counseling had occurred, if 
that kind--what was it like?
    And the core of our institution is that we grow and develop 
people, we are proud of what happens when young people in the 
United States of America go serve, what mom and dad and aunts 
and uncles see about how they have grown when they get home. 
That is the essence of what officership is about and creating 
and establishing and enforcing standards. We suggest it be 
looked at.
    Mrs. Davis. Thank you.
    The Chairman. Thank the gentlelady, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Secretary and Admiral, we thank 
you again for your service, you are good and decent men who 
have done good things for our country. Sometimes, though, we 
see today the American people oftentimes feel that we don't ask 
the questions that they wish we would ask and they constantly 
say you ask the questions you want to ask, but you don't ask 
the ones that are really on our mind.
    And they have indicated recently they are not going to 
tolerate that anymore, so we struggle here to try to get our 
arms around the questions that is really of concern to them. 
And here is what they seem to be saying to me, they are 
concerned about individual acts of violence and that is what we 
talk about. But even more concern to them is when those 
individual acts of violence have an association or support from 
a more orchestrated, long-standing patterns of violence that 
are sort of woven into tapestry of concern to the American 
people that seems to be missing from your report.
    Let me be specific on that. If we have had--I don't want to 
focus on the individual shooter, but if he had been a, 
Republican, no one would have argued okay, the Republican party 
caused him to do this, if had he been a Democrat, the same 
thing. No right-minded person. But as Mr. Akin mentioned 
earlier, there are radical Muslim extremist groups that with 
objective indicators, because we hear them on our streets 
interviewed by TV cameras. We read their threats and we sit 
corroborated in acts of terrorism.
    My question to you is this, I want to go back to the 
political correctness issue. Mr. Secretary, I want to give you 
a definition of it because you said we didn't have one. 
Political correctness is really the failure to say or do 
something that might offend anyone, even if that statement or 
action is true and can be beneficial if stated or done. My 
question is not as to the shooter, but why didn't we at least 
ask the question in this report, whether that political 
correctness kept any of the military personnel from applying 
their policies the way they would have done.
    That looks like to me it should have been a question asked. 
And even more particularly, my question to both of you is did 
we ask them if that political correctness kept them or impacted 
them from applying their policies.
    Secretary West. The question we asked was, ``Did you apply 
your policies?'' And the question we asked in our review of the 
facts we got was, ``And if not, can we tell why not?'' Which 
is, I think, another way of getting to yours and you will see 
about three paragraphs in our restricted annex that go to that, 
what kind of considerations were being taken into account when 
they failed to act? I think you'll find that we cover your 
concern.
    Mr. Forbes. Good.
    Admiral Clark. My response to that would go along these 
lines, that in the open annex we stress and focus the 
indicators for prohibited actions and activities. Here is the 
instruction, DOD instruction, and in our view it needs work. 
When I ask myself that question, I get to--I probably don't use 
the words that you would use, maybe I would, maybe I wouldn't, 
that is not the point. The point is we were focusing on 
violence. Violence that would generate from any source, do we 
have it covered, do we have the guidelines in place so that 
commanders know what the reaches of their authority are and 
what indicators they can say, ``That one crosses the line.''
    In our view--and then I talked about information sharing, 
see this is a puzzle that fits together and if they do not have 
all the information that would allow them to connect the dots, 
they won't get the right answer. Our conclusion is that these 
areas require immediate focus.
    Mr. Forbes. And we want to get that balance both of you 
talked about, but to get it, we have got to make certain we are 
not going too far on one side with actual policies where even 
by implication are keeping us from getting the answers that we 
need. Thank you both. Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. And thank you both for being 
here. I am going to disagree with my colleagues when we talk 
about political correctness, because I don't think that is 
really what this is about. I think it is about lack of 
leadership, lack of common sense, lack of awareness, a lot of 
other things.
    When you talk about officership, Admiral, I can remember 
when my husband was an Army officer, you were responsible for 
everything around you, not simply for your own behavior, but 
you were responsible to notice and work with others and to 
report. And there is a commonsense element here that is really 
missing. So right now I would like to focus on that. I want to 
know what is going to happen to the officers and the people 
around him. Those who saw things, what was their responsibility 
to each other, the responsibility to his country, the 
responsibility to the Army? What are we doing about them? And 
you can hand them training manual after training manual, you 
and I both know that if the light is not on, it doesn't matter.
    So I am more concerned about that. I don't know if it is an 
unwillingness or unawareness, I am not sure exactly what is 
wrong there, but I worry mostly about that. And it is the same 
thing with the recent attempt for bombing, most of us sitting 
there would say, sure I can add one, one, and one. Uh-huh, I am 
not confused, I can get there. And the same thing here with all 
the different pieces. I know we talked about connecting the 
dots, but I really don't think you needed the whole tapestry to 
recognize that we had a problem here.
    And I was very upset hearing my colleague talk about 
somebody who observed that and I am not sure what he did with 
it, because I didn't hear the interview that they were talking 
about, but I really worry about the rest of us that are sitting 
there and can't add one, one, and one and get to the right 
answer. So if you would both please comment on that.
    Admiral Clark. Well, I think your comments are very 
insightful, and I would be in alignment with your comments 
completely. You can't legislate good behavior, but you lay out 
by directive standards and guidelines and then leaders take 
over. So we use the term officership because we wanted to 
differentiate just between leaders and the requirement that an 
officer has that is even beyond what leaders are required to 
do, to create the environment for success for our people. So 
with regard to suggesting that the connection of the dots all 
had to be done to solve all the problems, we haven't said or we 
haven't taken that position. We have said that there were 
indicators that were there and they were either missed or, on 
page six and seven, I spoke to earlier. So clearly, the essence 
of the institution is about leadership.
    I talked about the growth and development aspect of it, but 
then helping people along the road on the growth and 
development process with the kind of feedback that oftentimes 
changes their life, changes their future. And so that is why I 
find myself in alignment. That said, we were asked to look at 
gaps and weaknesses. And we can see that there were things that 
would have made it even more clear had the dots been connected. 
And then we talk about information sharing, we are not just 
talking about information sharing across agencies, we are 
talking about what happens from command to command. Information 
does not move because it is kept in local files and not as part 
of the official record. And we believe that in order to deal 
with this evolving threat that the Secretary, his words were 
that this really evolved in the last decade, but you the 
changing threat, what happens when you have the alleged 
perpetrator being a field grade officer inside a member of the 
family.
    Well, this changes the fabric. We believe that you can't 
leave a stone unturned. And a stone unturned means give them 
every tool we know how to give them.
    Ms. Shea-Porter. Thank you.
    Secretary West. I think I would follow the Admiral's lead 
on all of that, but especially on one with reference to page 
seven of our report. I think there is no clearer indication of 
the fact that we share your view about the responsibilities of 
leadership of supervisors, of officers when they are being 
responsible for those under their command or under their 
supervision. We have two bullets there, both of them Mr. McKeon 
asked about in his opening comments. And that is, first, that 
the Secretary communicate directly to the force, and to 
commanders, and to all, the necessity to be part of what is 
happening with those around them who are under their 
supervision, whether it is supervision--in reaching out and 
seeing and knowing what is happening to them, how they are 
developing.
    And then secondly, the second bullet to communicate, how 
important it is to be honest and complete in our evaluations of 
those whom we are supposed to supervise and to be responsible 
for it. Those two things, I think, go directly to taking 
responsibility for those for whom you are responsible.
    Ms. Shea-Porter. Yes, each of us has to use our eyes and 
ears.
    The Chairman. I thank the gentlelady.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you gentlemen for 
your service and for being here today. A couple of points, I 
was looking at your report, I think it's in the executive 
summary here, and by the way, I did go look at the annex which 
is useful, but I have some sympathy with what my colleague from 
Arkansas, Dr. Snyder, said about, since that is redacted, the 
names out, it would be kind of nice if we could see it. But I 
am looking at page 6 in the report here and it says, as 
directed in the terms of reference we reviewed the accession, 
training, education, supervision and promotion of the alleged 
perpetrator of the incident at Fort Hood.
    I know that is how we talk and there are lawyers 
everywhere, so we have an alleged perpetrator and we have an 
incident. But I think picking up with Mr. Forbes' comments, 
most Americans say we had a brutal mass murder, not an 
incident. And as you pointed out, Mr. Secretary, certainly the 
victims, those killed and wounded and their families and those 
around were indeed terrorized, whether that is an act of terror 
or not, we need another lawyer to sort that out for us.
    And so I think following up again on Mr. Forbes's comments, 
the American people recognize the 9/11 Commission was correct 
years ago when it said we have an enemy, and that enemy is 
Islamist extremists, their words. And the concern is that we 
may not be paying attention to the fact that the alleged 
perpetrator was, in fact, an Islamist extremist and how he was 
radicalized whether self-radicalized or radicalized by an imam 
in Yemen. I suppose it is still being looked at as probably a 
matter for the trial, so we don't need to go into that.
    But I think there is some frustration out there, and you 
have heard some of it out here from us, that we seem to be 
overlooking what is the 800-pound gorilla or the elephant in 
the room. That this is something more than a random act of 
violence with an alleged perpetrator, and it is certainly more 
than an incident. You said, Mr. Secretary, that you thought we 
need to look at ways of carrying this information forward and I 
think you are on to something there. I know many, many years 
ago, when I was a second lieutenant in the Marines we were 
asked to keep a platoon commander's notebook. And in that 
platoon commander's notebook we had every Marine's name and 
number and the wife's name and dog's name and kept track of 
things so we knew who those Marines were in our platoon, we 
would keep track of it.
    And then because of FOIA [Freedom of Information Act] came 
out that you can't do that, because those little notebooks with 
your comments will be taken away and made public. And I think 
that from that time it seemed the next 25 years that I served, 
and Admiral you served so many more, and thank you for that by 
the way, that ability to keep track of our men and women has 
gone further and further away from the little platoon 
commander's notebook to the fact that you can't keep track in 
the major events that occurred in the lives of our men and 
women in uniform. So the question to you is, I can't quite 
track it here, but have you made a specific recommendation to 
do something specific about some statute, or is that part of 
the reference that you have made for action by the Secretary of 
Army or something? Can you address that?
    Admiral Clark. The part that has referred to the Secretary 
of the Army is the specifics about determining the 
accountability and take measures as he deems required. So we 
step forward, and I indicated before, I believe you were here 
when we talk about in order to speed that process in a manner 
in which we manage ourselves and our structure in organization, 
so with have coherency and continuity in a person that is not 
only collected all of our information that steps forward and 
does the next phase also.
    You know, your comments about the platoon commander's 
notebook remind me, again, of what officership is all about. 
And it also aligns itself with what the Chairman of the Joint 
Chiefs of Staff said on day one, hey, I expect the chain of 
command to function effectively and know what is going on in 
the unit and in the group.
    Mr. Kline. With respect, if I may, I only have got 20 
seconds. But the point is that officership needs some tools and 
that platoon commander's notebook was part of it. So the 
question is, is there a recommendation that we take some 
legislative action that would allow for simplicity's sake that 
platoon commander's notebook to be reinstated because it is not 
there now?
    Admiral Clark. And you see our reference throughout talking 
about giving them the tools that they need and the gaps that 
exist. And so measures that have occurred because of 
interpretations is what policy review is all about. And so if 
it requires your kind of action, then it is exciting to know 
that there are people in the Congress who are ready to lead 
that effort.
    The Chairman. I thank the gentleman, Mr. Taylor.
    Secretary West. May I?
    The Chairman. Yes, please respond.
    Secretary West. In the back of our report, there is 
appendix C that lists for your convenience all the findings and 
recommendations by chapter and by subject, 2.8 or 2.9 of that 
is recommendations, carries a recommendation that I think goes 
to what you said, the ability to collect information and to 
carry it forward, so that is part of what you had. The second 
thing is you mentioned that the victims and the wounded were 
terrorized, I think my language was terrified. In both cases, I 
think we acknowledged that they died and were wounded with 
courage, honor and dignity.
    Mr. Kline. Thank you.
    The Chairman. Mr. Taylor, gentleman from Mississippi.
    Mr. Taylor. Thank you, gentlemen, for your continued 
service to the nation. Admiral, I am going to--I think this is 
the first time you have appeared before this committee out of 
uniform, so you are free to speak your mind.
    Admiral Clark. Yes.
    Mr. Taylor. Could this have happened on your watch and 
regardless of how you answer that, why and what is the message 
for the base commanders who are still in uniform?
    Admiral Clark. Well, since we judge today that the policies 
and the programs and the procedures to guidance on unauthorized 
and prohibited activities are inadequate today, then I would 
suggest that they were inadequate when I served too. And that 
is the what and the why.
    Mr. Taylor. And your specific recommendations now that you 
are out of uniform.
    Admiral Clark. My recommendations are focus on the 
behaviors and focus on anything--we are talking about 
protecting our people and our workplace, focus on the violence 
indicators. And then once you do that somebody said, does it 
include this, does it include that? Of course it does. It 
includes anything that is going to create harm for our people. 
Go deal with it, create the guidance on the indicators and 
empower and enable the commander so they can take the actions 
they need and connect the dots.
    Mr. Taylor. In the case of this individual, did anyone--did 
any of his coworkers or did any of his patients raise an alarm 
flag and say I think this guy is dangerous?
    Admiral Clark. I wrote this down at the top of my page, I 
am constrained. I cannot----
    Mr. Taylor. I really don't think you are.
    Admiral Clark. I'm sorry, I am. My interpretation of it is 
I am. By the way, this is not my report, we have turned it 
over.
    Mr. Taylor. Again, I am asking you, Vern Clark, not Admiral 
Clark, you, Vern Clark, former CNO [Chief of Naval Operations], 
an opportunity to talk to the American public, did anybody in 
his command or patients raise a red flag that, I think, this 
man is dangerous?
    Admiral Clark. And I am here representing the work of this 
review. If you want to invite me back for another day to have 
discussions about other topics, I am here representing this 
review and representing this review, this area of discussion, I 
am restricted, and I would be happy to talk about it in closed 
session.
    Mr. Taylor. You are invited back at your convenience, and I 
wish you would say it today. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. I just want to thank 
you both for your long service to this country, but I want to 
start out saying how offensive the notion of this review in its 
classification ought to be to the American people. This is just 
another incident in a long pattern before this committee of 
information that is withheld from the public that is neither 
germane to national security interests in terms of its 
classification, nor is it impending on any legal processes. I 
read it, it is just merely a finding of facts prior to the 
event. And it ought to be available to the American public.
    And so I think we have classification. It ought to be 
politically embarrassing and that ought to be a classification 
top secret, secret, confidential, politically embarrassing. 
Because the majority of information that has come before this 
committee that has been classified is merely classified because 
it is politically embarrassing.
    General Mukasey had said right after the incident that 
after these people were killed that it was a great tragedy but 
would be a greater tragedy if, in fact, we overreacted. And I 
think he was referring obviously to the Muslim Americans 
currently serving in the military. I served during the Cold War 
both in the Army and Marine Corps, and there was a 
counterintelligence strategy for what we could detect 
individuals who had sympathies with those who might be 
ideologically aligned to our opposition at the time, Marxist 
communism.
    We no relationship with a series of organizations that, in 
fact, were aligned, directly or indirectly with our adversaries 
at that time again during the Cold War. It would seem to me 
that we are at war now, and whether we called it the global war 
on terror or whether we call it overseas contingency operations 
with a version of radical Islam that has somehow morphed into a 
political ideology that has declared war on the United States.
    And so do you see that out of your recommendation that we 
are, in fact, have been able to have a system of 
counterintelligence that looks at linkages, looks at objective 
patterns and behavior to try to decipher these sympathies with 
those who are aligned as enemies to this country.
    Secretary West. I think the quick answer, Congressman, is 
yes, I think to some extent Secretary Gates even touched on 
that kind of an idea in his statement the other day when he 
released a report. The fact is we do have to respond today to 
today's imperatives, and those imperatives include the 
possibility, that is why we are doing this, that an incident 
like this could occur again or worse, several, several at 
different installations and that they could be part of a 
coordinated effort.
    So we need to look at now at what Admiral Clark just again 
reemphasized as the indicators and then collect them and make 
them available so the people can use them as match sticks as 
they evaluate what is happening in their units.
    Mr. Coffman. Admiral.
    Admiral Clark. I reinforce my earlier comments. Certainly 
that kind of collection is authorized in certain circumstances, 
and although those are not a part of this committee's work but 
other committees in the Congress. It is a matter of, in the 
public domain, that improvements need to be made in that regard 
and that is all then about information sharing and might press 
the point earlier in response to another question inside the 
Department and in interagency domain to help commanders connect 
the dots.
    Mr. Coffman. Let me say in closing, thank you for your 
testimony, I served in Iraq with the United States Marine Corps 
in 2005 and 2006, and I served with the Muslim Americans there 
and I was impressed with their service and dedication to their 
country. I do believe that they would want a 
counterintelligence operation to where there would be no 
question about their loyalty to this country, but I think they 
are a valuable asset to the Armed Forces of the United States. 
Thank you again. I yield back, Mr. Chairman.
    The Chairman. The gentleman, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. And thank you gentlemen 
for being here this morning and for the work you have done. I 
apologize, but I have my own hearing so I got here late, but I 
did want to cover two areas that I think--if they have already 
been covered I apologize. The first one is the sharing of 
information. In terms of, I guess, the kind of intelligence 
that we know we have and have the capability to evaluate 
internally, you are--let me start there, what are your 
recommendations in terms of how much we haven't shared and how 
much we should?
    Admiral Clark. Good to see you again, sir.
    In the entire area of information sharing, our 
recommendation is, and the simplest way to say it is, take down 
the barriers. Get rid of them. And make sure you do it inside 
the Department, too. But certainly do it in the interagency 
process.
    I have in front of me an immediate release, FBI release, on 
Friday, saying a series of things are going to be done. In your 
other committee, I know this is going to be something you are 
going to look at. Now, other investigations have occurred. The 
President chartered an examination of the intelligence process. 
I am sure that is the subject of your other work. But my 
response would be just as it was to Mr. Taylor; I am not here 
to represent that report. I am here to represent this report.
    But our recommendation is we need the barriers removed. We 
need to make sure that--we are going to hold the commanders 
responsible. And to do that, we need to make sure that they 
have the tools, and sometimes the tool is maybe a risk-
assessment tool that helps them look at a series of diverse 
information. Other times it is straightforward raw 
intelligence. And so, remove the barriers, is the simplest way 
I know how to say it, sir.
    Secretary West. I would say we have two information sharing 
problems that we address in our report. The first, as the 
Admiral alluded to, is amongst ourselves within the Department 
of Defense from one commander to another, from one command 
level to another, to get the information that is needed to make 
assessments there.
    The second one I also alluded to and the product of one of 
the FBI investigations is sharing between agencies. And there, 
again, we saw some breakdowns, and we made some specific 
recommendations for some improvements, including increasing the 
operation of the Joint Terrorism Task Force.
    Mr. Reyes. Like Mr. Taylor, I hope we get an opportunity to 
have you back where you are not constrained by just reporting 
back on this report. The other issue--because as you probably 
know, I represent Fort Bliss, and I get a chance to talk to 
soldiers and their families. One--and I am curious to hear your 
thoughts. One of the things that they are conflicted about is 
the fact that, before they deploy, they are expected to read up 
and know about the country they are going to, Afghanistan and 
Iraq.
    The incident at Fort Hood has sent I guess a chill down 
that says, if you are looking at the Internet to learn more, 
you may either become susceptible to radicalization, you may be 
getting the wrong information, you may--somebody may be 
monitoring it that may reflect negatively on them. How do we 
draw a balance on making sure that our troops going overseas 
into these areas are as knowledgeable as possible but yet don't 
have this cloud over them about the work that they do on their 
own through the Internet?
    Secretary West. I think that raises a good question, 
Congressman.
    I have to say that I don't think we either discussed it or 
analyzed that particular part of the balance, if you will, in 
preparing our report. We have been focusing, frankly, on 
whether even in that research I will have to say or that--those 
connections--there are indicators that need to be--that we need 
to be aware of and at least evaluate. Your point as to whether 
there is a kind of, what, and interim effect or an inhibitor in 
leading up to prepare is, I think, a valid one. I guess my 
answer is, if we pursue our research on the Internet with 
honest hearts and good intention, I think that is likely to 
show itself.
    But if there are repeated efforts that lead to a growing 
radicalization, remember, it is not just that it is a 
collection of indicators, a whole host of them that are needed 
to be read. I think if they are read properly, then we should 
be able to separate the wheat from the chaff. But the people 
who are in danger of self-radicalization and therefore of 
violent acts and those who are simply preparing to go, now that 
may not be the most satisfactory explanation, but it is the 
best one I have.
    The Chairman. I thank the gentleman.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentleman, thank you.
    Admiral, good to see you this afternoon.
    Mr. Secretary, you mentioned understanding the forces of 
radicalization and/or self-radicalization.
    Admiral, you indicated key indicators of violence, lofty 
terms.
    Certainly easier said than done. The clarity of hindsight 
allows us in most instances to weave a Tinkers to Evers to 
Chance connect-the-dots program that would say, oh, yeah, 
surely had we done that, we could have stopped whatever 
incident might have gotten involved. But in the fog of the 
present, the unclarity of the ongoing, of the day-to-day, we 
ought to always strive to get better at whatever it is we are 
doing. And if we have got your report, great, and as we plug in 
those things.
    But I am concerned that--and Secretary West, you may have 
just called for a constant surveillance of Internet activity by 
all of us. Do we want to live in a country that creates a 
surveillance program of thoughts and ideas and those kinds of 
activities in our quest to be safe? There is a movie out 
there--I think Tom Cruise starred in it--where they set in 
place a system to anticipate crime, and they would go and 
punish folks who they thought would commit a crime in the 
future before it was committed just because it occurred between 
their ears.
    So I don't want to build an unrealistic expectation that in 
a free America, in an America where the--where our protections 
under the Constitution allow us to think and say and express, 
that we don't sacrifice that in this quest to be safe because I 
don't know that you will ever get there and you won't be safe 
enough, and I don't know that I want to live in a world where I 
can't go to the Internet with some expectation of anonymity to 
look for things on the Internet if I am searching for bombs or 
whatever. But just to create that expectation and prepare the 
American people's mind that we, in fact, in the military, 
Department of Defense, could in fact surveil our people so 
closely that a fratricide incident will never occur or that if 
it does occur, we have spectacular failure of command; I don't 
know that I believe we can do that. Just your comments.
    Secretary West. I am not sure, Congressman, that I called 
for it. But I certainly acknowledge that I understood the 
Congressman's concern and the concern of events by his people. 
Because we do advocate looking for the indicators and recording 
them and having an entity that can make a collection of what 
kinds of indicators we are to be looking for.
    You solved the problems I had with your question because we 
are not calling for it for the American people. We are talking 
about the fact when people are part of the military family, 
they come privileged to enter our facilities by just inserting 
a card.
    Mr. Conaway. So they sacrifice their----
    Secretary West. Some things. That is already established.
    Mr. Conaway. I understand that. But the more they sacrifice 
in terms of their personal freedoms and personal privacies, the 
less attractive the uniforms will be.
    Secretary West. I think you are right.
    Admiral Clark. And I would love to comment on that. I don't 
want to align myself with the movie. That is not where I want 
to go. And you don't either.
    Mr. Conaway. I don't remember the name of the movie.
    Admiral Clark. I don't know either. I haven't seen it.
    Mr. Conaway. Chilling.
    Admiral Clark. What I do believe is we could have done 
better on this one. So we want to do as well as we know how to 
do. And the keyword again is this balance thing. And this is 
why we took great care not to define exact outcomes but to say, 
Mr. Secretary, as you look at this, this is an area you need to 
put the spotlight on when you look at the policy, programs, and 
procedures. We believe there is fruit to be harvested here, and 
then people in responsible positions in the administration make 
the decision about what that balance is going to be. And we 
believe that that is going to require everybody to challenge 
the assumptions and then move forward, and certainly the 
Congress has a role to play in all of that.
    Mr. Conaway. I think understanding the radicalization 
process, I think what--you look at a fellow, Hasan, all of the 
advantages that he had, born here, grew up here, all of the 
educational advantages he had; how did he decide to do what he 
did? Allegedly--I am a CPA [Certified Professional Accountant], 
not a lawyer, so I can talk a little clearer, perhaps. Anyway, 
thanks for your comments this morning. I yield back.
    The Chairman. I thank the gentleman.
    Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    I think I am the last member here, so I guess I am the end 
of the totem pole. So, hopefully, I just think that, though, if 
we are ending here, we need to get back to the beginning, and 
that is what the chairman said. And I think that you have seen 
consistency on both sides of the aisle here. A lot of the 
questions we have over here are a lot of the questions that 
were raised on the other side. And I think the chairman, 
though, said it best at the beginning, what we have here are 
two issues that the American people in my district, and I am 
sure across this country, are concerned with, and that deals 
with the breakdown between communication of the federal 
agencies, the Department of Defense, the Department of the 
Army, the FBI and the CIA, whoever should have known about 
these things or been communicating. I mean, after 9/11, as we 
all know, that is why we have Homeland Security, so we don't 
have these breakdowns in communication between federal 
agencies. That is one thing that is not acceptable to the 
American people.
    So those questions and those solutions as we move forward, 
and I understand that you are under restriction. I am a former 
judge advocate. I served at Fort Hood. I was in the First 
Calvary Division, and my son was born at the hospital that 
Major Hasan worked at. So it is very emotional for me to sit 
here. But as a lawyer, I understand what your restrictions are 
and what the Army--I always say that--to people that are quick 
to react to this situation, what the Army has done or not done. 
And my initial pushback is we need to give the Army the benefit 
of the doubt that we are doing things the right way, and we are 
not purposely doing things to expose people to risk or danger 
that we can do better. And I think that, with this review, 
hopefully, that that is true.
    And whether or not you can address that specifically that 
we will get better and that as, Admiral, you said that if we 
had inadequate policies, that those dots will be connected, and 
we will address them in the future.
    The one question, though, I did have with that, Admiral, 
and I don't know if you are specifically saying that, you 
alluded to the fact that commanders will be held responsible. 
And I don't know if that means retrospectively because there 
were things missed. But I don't really understand what you mean 
when you said that if the policy is inadequate, but we are 
going to hold commanders responsible. How can you hold 
commanders responsible if the policy was what it was?
    Admiral Clark. Thank you for the opportunity to clarify. 
Certainly what happens when issues like this come up and 
hearings are held, the judgment is, did the commander do what 
he could do with the tools that he had? That is what I am 
saying. If it is within the ability of the commander to have 
the information that is required or to take the actions or to 
pursue the lines of inquiry, then they are held accountable. If 
they do not have, which is certainly the case in a number of 
these things that we are citing today where policy, we believe, 
was inadequate, then that is another story. And as a former 
judge advocate, you know how you would advise the commander 
when they came before you.
    Mr. Rooney. And I will say, I didn't finish my point with 
the chairman. The second point was, what may or may not have 
been missed with regard to Major Hasan and how we connect those 
dots and have the correct policy that is adequate, and what we 
can expect from our commanders moving forward? So those are the 
two things that I think the American people quite simply want 
to know. And I will just--if I could clean up a few things here 
because I have a minute left.
    Mr. West, absolutely, a terrorist act could have been one 
of the charges referred here. Whether or not it is or it isn't, 
I don't actually know. I know that there is murder, 
premeditated, attempted murder charges here. But within the 
rules and scope of the law, terrorist act is certainly evident 
here. I am not going to question why it was or was not charged. 
But you are right.
    Secretary West. We are not there. It may well be charged.
    Mr. Rooney. I do just want to close with this. I think with 
this idea that has been raised a few times here with political 
correctness versus good order and discipline, I sort of 
disagree a little bit with what was just said. All of these 
guys wearing the uniform behind you understand that when they 
sign up, they are sacrificing a lot of constitutional rights, 
that the rest of us--that is part of sacrifice. That is part of 
service. And we know that when we are signing our name on the 
dotted line and filing--and getting into formation every 
morning. That is part of the deal.
    But I just think that it needs to be--I think it needs to 
be remembered that the Supreme Court has upheld time and time 
again that for the sake of good order and discipline, 
sacrificing some of the rights that we civilians have, 
including political correctness for the sake of--it might not 
be all politically correct in the military, that the military 
gets to do that, to keep us safe. So, with that, I will just 
thank you for your service and for your testimony.
    The Chairman. Admiral.
    Admiral Clark. Very briefly. And our report points out that 
there are differences between uniform members and civilians in 
the Department. And I then refer back to Mr. McKeon's comments 
early on that this is not just an issue in the Department of 
Defense. And so if you look at the kind of threat that we are 
describing, we are talking about a challenge to us as a people. 
And so we didn't say, go change those rules; don't change that 
mix. But we did point out that it is different. And so if when 
we then examine the whole force protection of the environment, 
we have to understand what we have and we have to make 
judgments and those judgments have to be made on balance, and 
then those policies have to be defined and in an enabling way 
that goes back to the point that we pressed here: Let's equip 
and enable the commander, the leaders in these institutions so 
that they can lead the command with the context of good order 
and discipline and all that goes with that.
    The Chairman. Mr. McKeon, final comments.
    Mr. McKeon. Thank you, Mr. Chairman.
    And again, thank you for being here and for being able to 
answer some questions and not being able to answer questions. I 
don't know if we all understand all of that. But it is what it 
is. I said in my opening statement that an officer takes an 
oath to support and defend the Constitution of the United 
States against all enemies, foreign and domestic. I also said 
in my questioning that the media reports that we have been 
given, one of them was that Major Hasan had made a statement 
that Sharia law trumped the Constitution. What I want to know 
is, if you can answer that, did he, in fact, say that? Yes or 
no.
    Admiral Clark. Sir, it is in the restricted annex. Any 
reference to anything that he might have said that we decided 
to cite.
    Mr. McKeon. Okay. If somebody is an officer in the armed 
services and they make a statement such as I quoted that would 
indicate opposition to the oath that they took as an officer, 
why would they then have a right to be promoted to higher rank, 
or why are they even indeed left as an officer in the service?
    Secretary West. I think it is fair to say that statements 
like that are indicators that ought not be missed and that 
ought to be taken into account in making decisions on precisely 
what you said.
    Mr. McKeon. Thank you very much.
    Admiral Clark. May I clarify that I didn't say whether that 
such a comment was in the restricted annex? Any comments that 
he might have said that we decided to include in the annex are 
in that restricted section, and I would personally enjoy a 
fulsome discussion on that particular subject.
    Mr. McKeon. Thank you.
    The Chairman. I thank the gentleman.
    Let me ask, in summary, if you agree with my comments that 
we have all been frustrated, as you know, by our inability to 
discuss all aspects of the shooting at Fort Hood?
    Some things are clear. More needs to be done to identify 
and document behavior that suggests an individual may present a 
danger. We need to carefully examine what new tools or 
authorities may be needed to address this. Do you agree with 
that?
    Secretary West. You said it better than we wrote it, Mr. 
Chairman.
    Admiral Clark. I align completely with your words.
    The Chairman. Thank you.
    We also heard there was a failure in what the independent 
review, your independent review, has described as officership; 
that at least in the case of Major Hasan, military officers 
failed to accurately document Major Hasan's performance and 
abilities in his academic and his military evaluations. Do you 
agree with that?
    Secretary West. That is with greater detail than we said 
it, sir. What we said is they failed to apply Army policies to 
the perpetrator, and they also--there are inconsistencies in 
what they wrote.
    The Chairman. Okay.
    Admiral.
    Admiral Clark. Secretary West is correct.
    The Chairman. Let me ask as a last question, I think it is 
very, very important. Your term officership, I think across the 
board, those in uniform should fully understand that term. 
Would each of you give the definition of that term one more 
time?
    Secretary West. I am going to let Admiral Clark go first. 
It is a term that he uses most often. And then I will give my 
view.
    The Chairman. Admiral.
    Admiral Clark. We talked about it at length inside our 
review. And just a couple of days ago, one of the staff members 
came up and provided me with this instruction that has it in 
it. And it happens to be from the Uniform Services University 
of the Health Sciences. And if you would like, we can provide 
it to you. But it talks----
    The Chairman. Would you like that to be part of the record?
    Admiral Clark. That is fine. That is--I agree with 
everything that is in here, and it talks about all of the 
elements that unify the role of a commissioned officer in the 
United States of America, and talks about upholding the 
Constitution and the oath, and then the standards and all of 
the things that we would expect that go with leadership and a 
person who decides to live the lifestyle of service in the role 
of leadership supporting the goals and objectives and the 
principles and values of the United States of America.
    The Chairman. Thank you.
    I know Mr. McKeon joins me, as well as all of the members 
of the committee, in thanking you for your service on this 
panel, your leadership, and of course the fact that you have 
been such outstanding American leaders in the past. Thank you 
very, very much.
    [Whereupon, at 12:16 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                            January 20, 2010
      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 20, 2010

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
